Office of Inspector General

        SEMIANNUAL 

         REPORT TO 

         CONGRESS 


For the Period October 1, 2008, through March 31, 2009



                Report No. 40 





  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL 


                                 serves American taxpayers 

                           by investigating reports of waste, fraud, 

                        mismanagement, abuse, integrity violations or 

                         unethical conduct involving Federal funds. 




                               To report any suspected activity 

                     involving NEH programs, operations, or employees 


                                    Call the OIG Hotline

                                      1 (877) 786-7598



                                      Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                            Fax

                                       (202) 606-8329


                                  Electronic Mail Hotline

                                        oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential
     NATIONAL                                                                OFFICE OF INSPECTOR GENERAL
     ENDOWMENT                                                               1100 PENNSYLVANIA AVE., NW
     FOR THE                                                                 WASHINGTON, D.C. 20506
     HUMANITIES                                                              ROOM 419
                                                                             TELEPHONE(202) 606-8350
                                                                             FACSIMILE (202) 606-8329
                                                                             1-(877) 786-7598 (HOTLINE)
                                                                             E-mail oig@neh.gov


                                        April 30, 2009

Honorable Carole Watson
Acting Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Acting Chairman Watson:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to
Congress for the first half of fiscal year 2009. The report is submitted in accordance with the
Inspector General Act of 1978, as amended. Section 5 of the Act requires that you submit
this report, with your Report of Final Action, to the appropriate committee or subcommittee
of the Congress within 30 days of its receipt. The report provides a summary of the activities
of the OIG during the six-month period ended March 31, 2009.

Internally, we reviewed the agency’s effort related to the Federal Managers’ Financial Integ-
rity Act and we transmitted the final report issued by Leon Snead and Company, P.C. in
which an unqualified opinion was expressed on NEH fiscal year 2008 financial statements.
External effort consisted of one audit; two desk reviews of grantee compliance with OMB
Circular A-122 concerning support of salaries and wages; one overhead rate review; and re-
view of 42 OMB Circular A-133 audit reports.

In our investigations program, we had seven matters open as of the beginning of the report-
ing period. We received seven “Hotline” contacts during the period; however, they were not
NEH matters. We concluded action on five cases and two cases remain open as of March
31, 2009.

In the interest of outreach, we have launched an awareness campaign wherein we are distrib-
uting guidance via email to recipients of NEH grants that would assist in their efforts to pre-
clude unfavorable outcomes should their grants be selected for audit. We have also com-
pleted and published a revised Accounting System Manual for State Humanities Councils
which is accessible through the OIG homepage.

On a personal note, I would like to recognize the significant contributions of Charles
Garfinkel, our Deputy Inspector General, who retired on April 3, 2009. He has served 37
years in the OIG community, first at the Department of the Treasury and then with NEH.
His efforts have, without a doubt, clearly demonstrated his commitment to improving gov-
ernment operations. At NEH, his exemplary work has greatly assisted many state humanities
councils to account and manage federal funds efficiently and effectively. In addition,
through his efforts, NEH has implemented several important policy changes. The NEH and
OIG staff will miss his commitment to making the government work better. We wish him
health and happiness in his life’s new adventure.
Acting Chairman Watson
Page 2


I appreciate your support and look forward to working with you and all agency staff to further our
common purpose of assuring the effectiveness, efficiency and integrity of NEH’s vital contributions
to the humanities in the United States.

                                            Sincerely,



                                            Sheldon L. Bernstein 

                                            Inspector General 

                                           TABLE OF CONTENTS 



LETTER TO THE CHAIRMAN 


MESSAGE FROM THE INSPECTOR GENERAL………………………………………………                                                                              1


THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ............................................                                          2


THE OFFICE OF INSPECTOR GENERAL ...........................................................................                       2


AUDIT AND REVIEW ACTIVITIES .......................................................................................               3


INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                               7


OTHER ACTIVITIES..............................................................................................................   10 


PRIOR AUDIT REPORTS UNRESOLVED……………………………………………………...                                                                            13 


TABLE I - REPORTING REQUIREMENTS…………………………………………………......                                                                        14     


TABLE II - INSPECTOR GENERAL-ISSUED REPORTS.....................................................                                 15 

WITH QUESTIONED COSTS 


TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH .........................................                                      15 

RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


GLOSSARY OF AUDIT TERMINOLOGY .............................................................................                      16     

                            MESSAGE FROM THE INSPECTOR GENERAL


     Over the past several years, our workload has constantly increased in volume and complexity and, as a conse-
     quence, oversight of the Endowment’s grantees by the OIG is diminishing.

     The OIG is responsible for contracting with and reviewing the work of an independent public accountant that con-
     ducts the annual financial statements audit. The audit is required by the Accountability of Tax Dollars Act of
     2002, and applies to many small agencies as well as the Endowment. The Federal Information Security Manage-
     ment Act (FISMA) review has been performed for several years as required. Each year the Office of Manage-
     ment and Budget (OMB) issues guidance for the review. The National Institute for Standards and Technology
     (NIST) Computer Security Division issues publications that the agency is responsible for implementing. The OIG
     is responsible for reviewing the agency’s implementation. The Government Accountability Office and the Presi-
     dent’s Council on Integrity and Efficiency periodically update their various guidance on auditing, inspections and
     reviews, and investigations. This increases the burden on the OIG.

     OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations, issued pursuant to the
     Single Audit Act of 1984, (as amended), sets forth audit guidance applicable to the expenditure of Federal awards
     by non-Federal entities. The threshold for an audit is the expenditure of $500,000 or more in a fiscal year. Con-
     sequently, the threshold level eliminates audits for a significant number of non-profit organizations that receive
     grants from the Endowment, including approximately 17 of the 56 state humanities councils. The President’s
     Council on Integrity and Efficiency issued a report on the single audits. The report disclosed that a majority of the
     work performed on OMB Circular A-133 audits did not meet professional standards. Thus, besides having fewer
     NEH grantees subject to the OMB A-133 audit, the reports issued are not totally reliable. This clearly indicates
     that the OIG needs more resources to provide adequate coverage of grantees. In addition, monitoring by pro-
     gram offices is not, in our opinion, adequate.

     Another impact on our oversight of grantees is internal and grantee investigations. Opening an investigation has
     a significant impact on our audit plan because we do not have staff dedicated to investigation work. Therefore, it
     becomes necessary to reassign audit staff trained in investigation work to perform the investigation. With signifi-
     cant fluctuations on a yearly basis, it is difficult to be proactive concerning investigations or realistically budget
     staff time for this effort.

     In our last semiannual report, we noted that the OIG needs a part-time auditor. NEH agreed to provide this posi-
     tion and we began the recruitment process to fill the slot. We received applications for the position; however, we
     did not select anyone. The previous message from the Inspector General also stated that we need a part-time
     attorney. The Inspector General Reform Act of 2008, Public Law 110-409, provides that each Inspector General
     will have independent counsel. The law states:

                        “(4) Each Inspector General shall-

               (A) in accordance with applicable laws and regulations governing appointments within the designated
                   Federal entity, appoint a Counsel to the Inspector General who shall report to the Inspector General;
               (B) obtain the services of a counsel appointed by and directly reporting to another Inspector General on a
                   reimbursable basis; or
               (C) obtain the services of appropriate staff of the Council of Inspectors General on Integrity and Effi-
                   ciency on a reimbursable basis.

     ( c ) Rule of Construction — Nothing in the amendments made by this section shall be construed to alter the du-
     ties and responsibilities of the counsel for any establishment or designated Federal entity, except for the availabil-
     ity of counsel as provided under sections 3(g) and 8G(g) of the Inspector General Act of 1978 (5 U.S.C. App.) (as
     amended by this section). The Counsel to the Inspector General shall perform such functions as the Inspector
     General may prescribe.”

     We have been discussing a service agreement with the General Counsel of the Treasury Inspector General for
     Tax Administration. Therefore, when we sign the agreement in May 2009, we will have an independent General
     Counsel.



NEH OIG Semiannual Report                                     1                                                   March 31, 2009
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Con-
      gress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act estab-
      lished the National Endowment for the Humanities as an independent grant-making agency of the Fed-
      eral government to support research, education, and public programs in the humanities. Grants are
      made through four divisions - Research Programs, Education Programs, Preservation and Access, and
      Public Programs -- and two offices -- Challenge Grants and Federal-State Partnership. The divisions
      and offices also administer the We the People: NEH’s American History initiative.

      The NEH’s newest initiative is Picturing America. This program “… provides an innovative way for citi-
      zens of all ages to explore the history and character of American through some of our nation’s greatest
      works of art. Images of people, places and events from American history give citizens everywhere a
      chance to better understand our country’s past and the principles for which it stands.” Information can
      be found at PicturingAmerica.neh.gov.

      The Act that established the National Endowment for the Humanities says "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics;
      literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criti-
      cism, and theory of the arts; those aspects of social sciences which have humanistic content and em-
      ploy humanistic methods; and the study and application of the humanities to the human environment
      with particular attention to reflecting our diverse heritage, traditions, and history and to the relevance of
      the humanities to the current conditions of national life."




                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Of-
       fices of Inspector General in several departments and in thirty-three agencies, including the NEH. The
       NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an impor-
       tant aspect of the Act. For example, the IG: cannot be prevented from initiating, carrying out, or com-
       pleting an audit or investigation, or from issuing any subpoena; has access to all records of the
       agency; reports directly to the Chairman, and can only be removed by the Chairman, who must
       promptly advise Congress of the reasons for the removal; and reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The In-
       spector General is also responsible for keeping the Chairman and Congress fully and currently in-
       formed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a secre-
       tary. The OIG and the Office of the General Counsel (OGC) have a Memorandum of Understanding
       detailing the procedures for the OIG to be provided with OGC legal services. Investigations are han-
       dled by the Inspector General, an auditor, and as required by the agency’s Deputy General Counsel.




NEH OIG Semiannual Report                                      2                                                       March 31, 2009
                                 AUDIT AND REVIEW ACTIVITIES 


                                          LIST OF REPORTS ISSUED 

    This office is responsible for external and internal audits. External auditing includes grants, pre-award
    accounting system surveys, review of OMB Circular A-133 audit reports, overhead desk reviews, limited
    scope desk reviews, and on-site quality control reviews of CPA workpapers. Internal efforts consist of
    audits, inspections, and reviews/evaluations of NEH administrative, programmatic, and financial operations.
    The OIG is also responsible for monitoring the work of the independent public accountant that conducts the
    annual audit of the NEH financial statements as required by the Accountability of Tax Dollars Act of 2002,
    and examining the audit workpapers and reports to ensure compliance with applicable requirements.

    Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of
    1978, as amended, requires us to report on the "Dollar Value of Recommendations that Funds Be Put to
    Better Use" and the "Total Dollar Value of Questioned Costs" (including a separate category for the “Dollar
    Value of Unsupported Costs”), [see Table II].

                                                                 Report Number                   Date Issued

    INTERNAL AUDITS/REVIEWS

    Fiscal Year Ended September 30, 2008                         OIG-09-01 (IR)                  10/15/08
     Consolidated Review of the Federal Managers’
     Financial Integrity Act (FMFIA)

    Final Audit Report                                           Transmittal Memorandum          11/14/08
     Financial Statement Audit FY 2008



    EXTERNAL AUDITS/REVIEWS

    EXTERNAL AUDIT

    Newport Historical Society                                   OIG-09-01 (EA)                  11/06/08

    DESK REVIEWS

    Museum of Northern Arizona                                   OIG-09-01 (DR)                  03/26/09
    Gilder Lehrman Institute of American History                 OIG-09-02 (DR)                  03/31/09

    OVERHEAD DESK REVIEW

    American Library Association                                 NEH-09-01 (ODR)                 03/13/09

    SINGLE AUDIT ACT REVIEWS

    42 OMB Circular A-133 Reports                                                  See Page 6




NEH OIG Semiannual Report                                    3                                                    March 31, 2009
                                 AUDIT AND REVIEW ACTIVITIES 


                                         SUMMARY OF REPORTS ISSUED
                                               INTERNAL AUDITS/REVIEWS

                                             Fiscal Year Ended September 30, 2008 

                                          Consolidated Review of the Federal Managers’ 

                                                 Financial Integrity Act (FMFIA) 

                                                October 15, 2008; OIG-09-01 (IR) 



    We made a limited review of the evaluations conducted by NEH division directors and office heads in accordance
    with Office of Management and Budget (OMB), Guidelines for the Evaluation and Improvement of and Reporting on
    Internal Control Systems in the Federal Government, and Guidelines for Evaluating Financial Management/
    Accounting Systems, for the fiscal year ended September 30, 2008.

    We made our review to determine if the evaluations appear to be reasonable and prudent. Nothing came to our at-
    tention that would indicate that the evaluations reviewed did not comply with the applicable guidelines.


                                                   Final Audit Report 

                                      Financial Statement Audit ~ Fiscal Year 2008 

                                      November 14, 2008; Transmittal Memorandum 



    We issued a memorandum transmitting the final report on the audit of the fiscal year 2008 financial statements of the
    National Endowment for the Humanities. The OIG engaged Leon Snead & Company, P.C., (IPA) to perform the au-
    dit as required by the Accountability of Tax Dollars Act of 2002. The OIG was responsible for 1) evaluating the quali-
    fications and independence of the auditors; 2) reviewing the auditors’ approach and planning of the audit; 3) monitor-
    ing the work of the auditors; 4) examining audit workpapers and reports to ensure compliance with Government Au-
    diting Standards, OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, and the Financial
    Audit Manual issued jointly by the Government Accountability Office (GAO) and the President’s Council on Integrity
    and Efficiency (PCIE); and 5) other procedures deemed necessary to oversee the contract and the audit.

    The IPA expressed an unqualified opinion on the NEH financial statements as of and for the years ended September
    30, 2008 and 2007. The IPA’s testing on internal controls identified no material weaknesses in financial reporting
    and the results of the IPA’s tests of compliance with certain provisions of laws and regulations disclosed no in-
    stances of noncompliance required to be reported.

    However, the IPA identified a significant deficiency in internal control related to the NEH continuity of operations
    (COOP) plan. The IPA noted that the agency drafted the plan in April 2006 but it has never been approved. Further,
    the IPA found no evidence of any testing of the COOP plan. The IPA acknowledged that the agency has put in
    place the measures necessary to continue operations in the event that the agency’s normal office space and sys-
    tems become available. However, without an approved, tested COOP plan that has been communicated to appro-
    priate individuals in the agency, the agency could find that its plan is not viable during a disruption of service.

    The IPA recommended that that the agency finalize and test the COOP plan, record the results and recommenda-
    tions resulting from the test, update the COOP plan as necessary based on test results, and establish policies and
    procedures for on-going periodic testing and updating of the plan.

    The IPA also reported that the agency completed corrective action concerning the prior year finding related to sys-
    tem access authorities on March 31, 2008. The finding was originally reported as a material weakness in the IPA’s
    report on the fiscal year 2005 financial statements.




NEH OIG Semiannual Report                                   4                                                  March 31, 2009
                                    AUDIT AND REVIEW ACTIVITIES 


                                           SUMMARY OF REPORTS ISSUED
                                               EXTERNAL AUDITS/REVIEWS
        External Audit

                                                 Newport Historical Society
                                               November 6, 2008; OIG-09-01 (EA)

        We conducted a limited audit of documentation supporting nonfederal funds certified for NEH challenge grant
        CH-20890-02 awarded to the Newport Historical Society, (Society). The Society was awarded this $500,000
        challenge grant for the purpose of building an endowment for humanities staff positions and humanities pro-
        gramming. To complete the challenge grant, the Society was required to raise three times the Federal offer
        or $1.5 million of eligible nonfederal funds.

        The principle objectives of our limited audit were to determine 1) if the amounts claimed on the challenge
        grant certification statements met the eligibility criteria of the challenge grant; and 2) whether the Society’s
        accounting records support disbursement of income in accordance with the grant budget. Our review was
        conducted in accordance with Government Auditing Standards as promulgated by the Comptroller General of
        the United States.

        The Society reported $1,502,069 as eligible donations to release matching funds under the challenge grant.
        We questioned the eligibility of $363,747 in certified donations. We also noted that the Society did not have
        audits as required by OMB Circular A-133. We recommended that the Society obtain donor transmittal letters
        and other documentation to support the eligibility of the donations questioned. If sufficient documentation
        cannot be obtained, the Society should substitute other donations that meet the eligibility requirements as
        established by the NEH.


        Desk Reviews

        During the six-month period ending March 31, 2009, we completed two (2) desk reviews of grantee effort re-
        porting and accounting systems. The objective of each review was to assess the adequacy of the respective
        organization’s time and effort accounting policies and procedures to ensure compliance with OMB Circular A-
        122, Cost Principles for Non-Profit Organizations. The desk reviews were performed in accordance with
        PCIE/ECIE Quality Standards for Inspections.

        The results of each review are noted below.

                                                Museum of Northern Arizona 

                                               March 26, 2009; OIG-09-01 (DR) 


        We concluded that the procedures in effect for the period covered by our review were not adequate to ensure
        compliance with the requirements set forth in OMB Circular A-122 concerning support of salaries and wages.
        During the period covered by our review, salary and wage charges not directly supported by Federal funds
        but related to projects supported by Federal funds were based on predetermined allocation factors. During
        the course of our review, the organization asserted that the policies and procedures had been modified and
        all salary and wage charges to projects supported by Federal funds would be based on effort reported in em-
        ployee timesheets. We did not expand our review to properly test implementation of the modified procedures
        and therefore could not attest to the sufficiency of the modifications.




NEH OIG Semiannual Report                                     5                                                  March 31, 2009
                                   AUDIT AND REVIEW ACTIVITIES 


                                         SUMMARY OF REPORTS ISSUED

     Desk Reviews (continued)

                                   Gilder Lehrman Institute of American History (GLI) 

                                            March 31, 2009; OIG-09-02 (DR) 


     We concluded that the organization’s time and effort accounting policies and procedures are not adequate to
     ensure compliance with the requirements set forth in OMB Circular A-122 concerning support of salaries and
     wages. Timesheets are prepared for some employees of GLI, specifically for those involved in projects sup-
     ported by Federal grants. The timesheets are prepared quarterly, but represent effort expended on a bi-weekly
     basis. The employees are paid monthly. Also, salary expenses allocable to the project supported by the NEH
     grant are not posted to the general ledger until the end of the fiscal year. We have requested a written re-
     sponse from GLI describing actions that will be taken to address our observations. We will schedule a follow-
     up review as deemed appropriate based on the organization’s response.


     Overhead Desk Reviews

     The OIG performs overhead desk reviews (ODRs) for NEH grantees requiring indirect cost rates. The reviews
     are done in accordance with the PCIE/ECIE Quality Standards for Inspections. The OIG sends the results of
     the ODRs to the Assistant Chairman for Planning and Operations, who negotiates the indirect cost rates with
     the grantees. We completed one overhead desk review during this period. (See page 3).



     Single Audit Act Reviews

     In the past several years, the budget for grants amounted to approximately 82 percent of the total NEH budget.
     The Single Audit Act Amendment of 1996 covers many NEH grantees. Grantees expending $500,000 or more
     in Federal dollars per annum are required to obtain an OMB Circular A-133 audit. The objective of the audit is
     to determine whether the recipients expend Federal funds according to applicable laws and regulations. The
     OIG receives OMB Circular A-133 reports from other Federal agencies (primarily the Department of Health and
     Human Services), state and local government auditors, independent public accountants, and grantees.

     During the six-month period ended March 31, 2009, we reviewed 42 OMB Circular A-133 audit reports. None
     of the reports contained findings that required reporting by the OIG to NEH management.


                                                 WORK IN PROGRESS
     Limited Audit ~ National Yiddish Book Center

     The principal objectives of this limited audit are to determine 1) that the gifts included in the organization’s first
     certification report under an NEH challenge grant are eligible to release Federal matching funds; and 2) that
     endowment expenditures are made in accordance with the terms of the budget as approved by NEH and any
     amendments. The challenge grant provides support for an endowment.

     Limited Audit ~ Humanities Texas

     The principal objectives of this limited audit are to determine 1) that the gifts included in the organization’s first
     certification report under an NEH challenge grant are eligible to release Federal matching funds; and 2) that a
     system is in place to monitor wage rates in accordance with the NEH Challenge Grant guidelines for compli-
     ance with the Davis-Bacon Act. The challenge grant provides support for the restoration of a historic building.



NEH OIG Semiannual Report                                      6                                                     March 31, 2009
                                        INVESTIGATIVE ACTIVITIES 

                                                          BACKGROUND


  The Inspector                   provides the authority for the Office
       Inspector General Act provides                            Office of Inspecto
                                                                           Inspectorr Gene
                                                                                      General to investigate
                                                                                                    investigate po
                                                                                                                 possi
                                                                                                                   ssible
                                                                                                                      ble viola-
  tions of criminal
           criminal or civil la
                             laws,
                               ws, ad
                                    administ
                                       ministrative
                                             rative regulations,
                                                    regulations, and
                                                                 and age
                                                                      agency
                                                                          ncy polic
                                                                              policie
                                                                                    ies,
                                                                                      s, whi
                                                                                         whicch rel
                                                                                                rela
                                                                                                   ate to the prog
                                                                                                               progra
                                                                                                                   rams
                                                                                                                     ms and
  operation
  operationss of the NEH. Th  Thee OIG Hotline
                                        Hotline, e-mail addre
                                                         address,
                                                               ss, an
                                                                   andd reg
                                                                        regu
                                                                           ular mail are efficient and
                                                                                                     and effective means
                                                                                                                   means of re-
  ceiving alle
           allega
               gations
                 tions or com
                          comp  plaints from em
                                              employee
                                                  ployees,
                                                        s, gr
                                                           grantee
                                                              antees,
                                                                   s, contractors, and the
                                                                                         the gene
                                                                                              general
                                                                                                    ral pu
                                                                                                        pub
                                                                                                          blic. The OIG has
  obtained
  obtained assi
             assistan
                 stance
                     ce from o  otther OIG
                                       OIGss, the Fede
                                                  Federal
                                                       ral Bureau of Investigation,
                                                                      Investigation, the Postal Inspec
                                                                                                  Inspection Service, and other
  investigative entities a
                         ass nece
                              necessary.
                                    ssary.

  When
  Whe  n the OIG receives
                   receives a compl
                               complaaint or allegation of a crimi
                                                             criminal
                                                                  nal or adminis
                                                                         administrative
                                                                                    trative violation, we make a d de
                                                                                                                    etermination
                                                                                                                      termination
  of the approp
         appropriate actio
                       action
                            n to take. The reresult
                                               sult co
                                                    could
                                                      uld be an audi
                                                                audit,
                                                                     t, an iin
                                                                             nvestigatio
                                                                               vestigation,
                                                                                          n, a referral to a
                                                                                                           another
                                                                                                            nother NEH office
                                                                                                                         office or
  division, a refe
              referral to anoth
                          anotheer Fed
                                   Fedeeral a
                                            aggency, or no ac
                                                           action.

  During the past several years, the OIG has frequently received Hotline contacts and did not have sufficient re-
  sources to complete the inquiry or investigation in a timely manner. Therefore, to alleviate this problem, we have
  been inquiring of other OIGs concerning their willingness and ability to assist us on an “as needed” basis under a
  reimbursable agreement. Several OIGs responded they would consider performing work for us on a case-by-case
  basis, depending on the availability of their staff to assist us.


                                                  OPEN AT OCTOBER 1, 2008

  Seven files were open at October 1, 2008.

  1. An NEH employee performing timekeeping duties falsified her own timesheets over a period of five years. The
  amount stolen from NEH amounted to approximately $35,000. The NEH Office of Human Resources discovered the
  problem. Administrative action was taken, and the employment of the person was terminated. The OIG presented
  information concerning this matter to the Department of Justice Criminal Division (DOJ). DOJ and the OIG will be
  meeting to finalize action.

  2. The U.S. Government Accountability Office (GAO), received an allegation concerning improper actions by a for-
  mer executive director of a state humanities council. GAO referred the matter to the NEH OIG. The OIG received
  information from the Council concerning the allegation. The Council has a new executive director, new staff, and
  significant changes in Board membership. The OIG review determined that the allegations contain no merit and we
  have closed the case.

  3. A former employee of an organization in receipt of an NEH fellowship grant alleged that the project director only
  spent about 20 hours on the project while receiving $40,000 from the NEH. The person stated that he and the pro-
  ject director only made copies of material previously worked on by the project director. Due to other work require-
  ments we were unable to open an investigation. We plan to begin work on this during the first week in May 2009.

  4. We received a call on our Hotline from an employee of the National Aeronautics and Space Administration
  (NASA) OIG informing the NEH that a grantee, in receipt of funds from several federal agencies, was allegedly
  changing the scope of the project. The allegation also stated that the project director was using funds for personal
  matters. The Assistant United States Attorney in Atlanta, Georgia is working with several OIGs on this case. We
  reviewed our files and found that the project director received a $25,000 grant in 1992, a year prior to the period be-
  ing investigated for other federal grants. We have determined that some of the allegations regarding the other fed-
  eral agencies have merit. However, we decided not to pursue this case since: 1) the grant concluded prior to the
  period being investigated by the other OIG’s; 2) our grant was for $25,000 while the other grants exceeded
  $100,000; and 3) the NEH program staff were satisfied with the work done on the project. We have closed our file.




NEH OIG Semiannual Report                                         7                                                    March 31, 2009
                              INVESTIGATIVE ACTIVITIES (Continued) 


     5. A rejected applicant for an NEH grant alleged that the panel process is flawed and the justification for the rejec-
     tion of the application shows lack of knowledge on the part of the panelists and NEH staff. The OIG did some pre-
     liminary work and found no merit to the allegation. The person making the allegation then claimed that the OIG
     reviewed the wrong application. We reviewed the correct application and found no merit to the allegation. We
     have closed our file.

     6. We received a Hotline letter from a former board member of a state humanities council alleging mismanage-
     ment by the Council. The contact further alleged that some current Board members are professors at colleges
     and universities in the state and vote on applications submitted by their respective employers. We looked into this
     matter and found that the Council has a conflict of interest policy that is enforced. Professors are not in atten-
     dance at meetings when applications from their institutions are discussed and voted upon. The new executive
     director is reviewing old policies and procedures with the board of directors. We have closed our file.

     7. An NEH division director informed the OIG that an award was made to an association that conducts business
     on a university campus. The project director passed away and the association and the university are in a legal
     battle to control the project. The situation has been resolved and the NEH funds were safeguarded during the
     legal process. We have therefore closed our file.


                            CONTACTS DURING THE SIX-MONTH PERIOD ENDED MARCH 31, 2009

     During the current reporting period, we received seven Hotline contacts. However, they were not NEH matters.


                                                 OPEN AT MARCH 31, 2009

     As of March 31, 2009, two matters that were open at the beginning of the period remain open.


                                  MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

     We did not refer any matters to prosecutive authorities during the current reporting period.


                                            HOTLINE AND PREVENTION ACTIVITIES

     We maintain a toll-free Hotline phone number, an agency e-mail address, and an internet address to provide addi-
     tional confidentiality for those persons bringing matters to the attention of the OIG. We periodically issue agency-
     wide e-mail messages informing NEH staff of violations that are reportable to the OIG. We also send e-mail mes-
     sages several times during the year to inform NEH staff about the OIG operations. Posters advising staff to con-
     tact the OIG are displayed throughout the agency’s facilities.




NEH OIG Semiannual Report                                    8                                                 March 31, 2009
                             INVESTIGATIVE ACTIVITIES (Continued)


                                        SUMMARY OF INVESTIGATION ACTIVITY



                                         Open at beginning of period                        7



                                      Matters brought to the OIG during                  - 0 - 1/
                                             the reporting period


                                         Total investigative contacts                       7

                                    Closed, referred, or no action needed
                                         during the reporting period                        5

                                              Open at end of period                         2

                                        1/
                                             7 contacts were received but were not related to NEH



                                                INVESTIGATION MANUAL

     During this period, we have been developing an investigation manual that will meet the standards of the
     President’s Council on Integrity and Efficiency. We plan to have the manual completed and to put it into op-
     eration within the next several months.




NEH OIG Semiannual Report                                        9                                          March 31, 2009
                                             OTHER ACTIVITIES 


                                   REGULATORY AND LEGISLATIVE REVIEWS


The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the econ-
omy and efficiency of agency programs and operations, and (2) contain adequate internal controls to prevent and de-
tect fraud and abuse. During this period, no legislative reviews were required.

                                          WORKING WITH THE AGENCY

OIG staff attended various NEH meetings – panel meetings (where grant applications are reviewed by outside con-
sultants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immedi-
ate staff), and the National Council meeting. Also, the IG or Deputy IG attends the Chairman’s monthly policy group
meetings. The Office of Inspector General contributes to the discussions but does not participate in policymaking.

The Inspector General initiated a meeting with the Assistant Chairman for Programs and the Division Directors to
discuss the involvement of OIG staff in meetings convened by NEH with grant project directors. As a result, the OIG
will be given the opportunity to make a presentation about the OIG and the OIG Hotline during all meetings sched-
uled with grant project directors.

The Office of Inspector General participated with the NEH Chairman, NEH program staff, and grant management
staff in the 2008 National Humanities Conference sponsored by the Federation of State Humanities Councils. OIG
staff conducted a workshop discussing accountability matters applicable to state council organizations. The work-
shop was attended by Board members, executive directors, and council personnel charged with fiscal responsibili-
ties. OIG staff also conducted an accountability session during the Federal/State orientation for new state council
executive directors.


                        PARTICIPATION ON THE EXECUTIVE COUNCIL ON INTEGRITY AND

                       EFFICIENCY/COUNCIL OF INSPECTORS GENERAL ON INTEGRITY AND

                                               EFFICIENCY


The Inspector General Reform Act of 2008, Public Law 110-409, amended the Inspector General Act of 1978 and
established the Council of Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is comprised of all In-
spectors General whose offices are established by the Inspector General Act of 1978, those that are Presidentially-
appointed/Senate-confirmed, and those that are appointed by agency heads (designated Federal entities). Prior to
the establishment of the CIGIE, two separate councils -- the President’s Council on Integrity and Efficiency (PCIE)
and the Executive Council on Integrity and Efficiency (ECIE), operated to coordinate and implement government-
wide activities to combat fraud and waste in Federal programs and operations. During the six-month period ending
March 31, 2009, OIG staff regularly attended ECIE and CIGIE meetings and provided input to the respective coun-
cils. The Inspector General participated in an ECIE ad hoc committee on implementing the compensation for IGs at
designated federal agencies. The Inspector General is a member of the Audit Committee of the CIGIE and the
Grant Fraud Committee (a subcommittee of the National Procurement Fraud Task Force). The Inspector General
also participates in the Misconduct in Research meetings. The Deputy IG participated in the Single Audit Roundta-
ble and the Federal Audit Executive Council (FAEC). One senior auditor attends the monthly meetings of the Finan-
cial Statement Audit Network, a subcommittee of the FAEC, and one senior auditor regularly attends the Assistant
Inspector General for Investigations (AIGI) meetings.




NEH OIG Semiannual Report                                  10                                               March 31, 2009
                                    OTHER ACTIVITIES (Continued)

                                          INTRA-GOVERNMENTAL ACTIVITY

  Congressional Inquiry

  We responded to a follow-up inquiry from the Honorable Henry A. Waxman, Chairman of the House of Represen-
  tatives ~ Committee on Oversight and Government Reform concerning recommendations made by the OIG from
  January 1, 2001 through September 30, 2008 that have not been implemented.

  Collaboration with the National Science Foundation ~ Office of Inspector General

  OIG staff is participating in a joint investigative effort concerning a major media grantee. The joint effort involves
  IG staff from three (3) Federal agencies. NSF ~ OIG is leading the investigation.


                                            OIG INTERNET AND INTRANET

  The OIG has posted several semiannual reports on the internet and on the NEH intranet. The reports are accessi-
  ble through the NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/OIG.html).

  To advance NEH staff recognition of the OIG mission and responsibilities, we provide links to several other Fed-
  eral agencies such as the Office of Management and Budget, the Government Accountability Office, the Office of
  Government Ethics, and the IGNET.

                                               TECHNICAL ASSISTANCE

  Throughout the reporting period, OIG staff provided telephone technical help to NEH grantees and independent
  public accountants about various matters. Generally, these involve the preparation of indirect cost proposals and
  implementation of the audit requirements of OMB Circular A-133.

  During the six-month period ending March 31, 2009, the OIG completed and published a revised Accounting Sys-
  tem Manual for State Humanities Councils, which describes a generic accounting system specifically designed for
  the needs of state council organizations. The manual was last revised in September 1999. This manual is a sig-
  nificant working resource for new staff at the Councils, independent public accountants engaged by the Councils,
  and new OIG staff. The manual is accessible through the OIG homepage (http://www.neh.gov/whoweare/
  OIG.html) and will be accessible through the Grant Management page for Organizations maintained by the NEH ~
  Office of Grant Management, (http://www.neh.gov/manage/OrganizationAwards.html).


                                    “AUDIT READINESS” AWARENESS CAMPAIGN

  The Office of Inspector General launched an awareness campaign via e-mail. The objective of the campaign is to
  distribute guidance that would assist recipients of NEH grants in their efforts to preclude unfavorable outcomes
  should the organizations’ NEH grants be selected for audit. The e-mail communication emphasizes the importance
  of the recipients’ review of and adherence to the specific NEH grant terms and conditions as well as the laws and
  regulations applicable to all Federal awards. We remind the recipients that they are stewards of Federal government
  funds and that they must comply with the OMB Circulars and the terms and conditions of the grant award. High-
  lighted in the e-mail communications are specific areas wherein problems are commonly found during audits of NEH
  grantees and links to appropriate guidance materials and resources. We also mention the importance of the effec-
  tive internal controls and the President’s Council on Integrity and Efficiency, Report on National Single Audit Sam-
  pling Project. The e-mail communications are sent to project directors and grant administrators identified for NEH
  awardees.




NEH OIG Semiannual Report                                    11                                                  March 31, 2009
                                   OTHER ACTIVITIES (Continued)
     During the six-month period ending March 31, 2009, e-mail communications were sent as noted below. We
     have reasonable assurance that all of the awardees received a copy of the communication.

                 NEH Office or Division                         Number of                 Number of E-mails
                                                                Awardees                       Sent*

          Office of Challenge Grants                                   18                            33
          Division of Public Programs                                  17                            27
          Division of Preservation and Access                          11                            21
          Office of Digital Humanities                                 2                              3


            * There were several instances where either the project director and the grant administrator were the
            same or we did not have any contact information for an individual.




NEH OIG Semiannual Report                                         12                                                March 31, 2009
                            PRIOR AUDIT REPORTS UNRESOLVED 



     	 Several recommendations from prior FISMA and Information Technology Security reviews remain to
         be addressed. The staff of the NEH Office of Information Resources Management is currently working
         on implementing some of the recommendations.




NEH OIG Semiannual Report                                13	                                              March 31, 2009
                                                  TABLE I


                               REPORTING REQUIREMENTS 



       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference       Reporting Requirements                                          Page

       Section 4(a)(2)        Regulatory and Legislative Reviews……………………………… 10

       Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies………………… *

       Section 5(a)(2)        Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)        Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)        Matters Referred to Prosecutive Authorities……………………… 8

       Section 5(a)(5)        Instances Where Information Was Refused or Not Provided…… *

       Section 5(a)(6)        List of Reports Issued………..……………………………………… 3

       Section 5(a)(7)        Summary of Reports Issued.………………………………………. 4-6

       Section 5(a)(8)        Audit Reports - Questioned Costs….……………………………… 15

       Section 5(a)(9)        Audit Report - Funds To Be Put to Better Use.…….…………….. 15

       Section 5(a)(10)       Prior Audit Reports Unresolved…………………………………..… 13

       Section 5(a)(11)       Significant Revised Management Decisions………………………. *

       Section 5(a)(12)       Significant Management Decisions with which OIG Disagreed…. *



        * None this period




NEH OIG Semiannual Report                                 14                                          March 31, 2009
                                                     TABLE II 

                                        INSPECTOR GENERAL-ISSUED REPORTS 

                                              WITH QUESTIONED COSTS 



                                                                               Number     Questioned     Unsupported
                                                                             Of Reports    Cost            Cost
         A. 	 For which no management decision has been made by the              -1-       $100,000        $-0-
              commencement of the reporting period.

         B. 	 Which were issued during the reporting period.                     -1-       $363,747        $-0-

                                   Subtotals (A+B) 	                             -2-       $463,747        $-0-

         C. 	 For which a management decision was made during
              the reporting period.

                  i. 	 Dollar value of disallowed costs.                         -0-        $ -0-          $ -0-

                  ii. 	 Dollar value of costs not disallowed (grantee            -1-       $100,000        $ -0-
                        subsequently supported all costs).

                  iii. 	 Dollar value of costs not disallowed based on the       -0-        $ -0-           $ -0-
                         “Value of Services Received.”

         D. 	 For which no management decision has been made by the              -1-       $363,747        $ -0-
              end of the reporting period.

         E. 	 Reports for which no management decision was made within           -0-       $ -0-           $ -0-
              six months of issuance.




                                                    TABLE III 

                                       INSPECTOR GENERAL-ISSUED REPORTS 

                              WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE 



                                                                                                       Number        Dollar
                                                                                                       Of Reports    Value

         A. 	 For which no management decision has been made by the commencement                        -0-         $-0-
              of the reporting period.

         B. 	 Which were issued during the reporting period.                                            -0-         $-0-

         C. 	 For which a management decision was made during the reporting period.                      -0-        $-0-

                  i. 	Dollar value of recommendations that were agreed to by management.                            $-0-

                  ii. Dollar value of recommendations that were not agreed to by 	                                  $-0-
                      management.

         D. 	 For which no management decision was made by the end of the reporting period.              -0-        $-0-




NEH OIG Semiannual Report                                       15	                                                  March 31, 2009
                            GLOSSARY OF AUDIT TERMINOLOGY

        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                   16                                              March 31, 2009
